  Department of Health and Human Services
                    OFFICE OF

               INSPECTOR GENERAL





   THE NATIONAL INSTITUTE OF

ENVIRONMENTAL HEALTH SCIENCES

  GENERALLY ADMINISTERED ITS 

  SUPERFUND APPROPRIATIONS

    DURING FISCAL YEAR 2012

      IN ACCORDANCE WITH

    FEDERAL REQUIREMENTS


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon

                                                Deputy Inspector General


                                                        April 2014

                                                      A-04-13-01025

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                      EXECUTIVE SUMMARY


 The National Institute of Environmental Health Sciences generally administered its
 Superfund appropriations during fiscal year 2012 in accordance with Federal
 requirements. However, it did not monitor whether its grantees complied with reporting
 requirements.

WHY WE DID THIS REVIEW

The Comprehensive Environmental Response, Compensation, and Liability Act of 1980
(CERCLA) established a fund, commonly known as the Superfund. The National Institute of
Environmental Health Sciences (the Institute) receives an annual Superfund appropriation to
carry out functions mandated by the CERCLA.

The CERCLA requires the Inspector General of a Federal organization with Superfund
responsibilities to audit all uses of the fund in the prior fiscal year. To meet this requirement, the
U.S. Department of Health and Human Services (HHS), Office of Inspector General, conducts an
annual audit of the Institute’s use of its Superfund appropriations.

The objective of our audit was to determine whether the Institute administered its Superfund
appropriations during fiscal year (FY) 2012 in accordance with Federal requirements.

BACKGROUND

The Institute, located in Research Triangle Park, North Carolina, is 1 of 27 Institutes and Centers
of the National Institutes of Health (NIH), which is a component of HHS. NIH provides the
Institute with direction and other administrative and professional services.

The CERCLA mandated the establishment of the Hazardous Substance Response Trust Fund,
which is commonly known as the Superfund. The Superfund Amendments and Reauthorization
Act of 1986 extended and amended the CERCLA. The Superfund is used to respond to
emergency environmental conditions that are hazardous to health and to pay for the removal of
toxic substances.

From October 1, 2011, through September 30, 2012, the Institute obligated approximately
$79 million and disbursed approximately $78 million in Superfund resources. Of the $78 million
in disbursements, $4.4 million was related to FY 2012 funds. The remaining $73.6 million was
related to prior periods.

In carrying out its Superfund responsibilities for FY 2012, the Institute obligated approximately
5 percent of these funds for administrative costs and awarded the remaining 95 percent as grants
to other organizations to:

    •	 train persons who are engaged in handling hazardous waste and managing facilities
       where hazardous waste is located and


National Institute of Environmental Health Sciences Superfund—Fiscal Year 2012 (A-04-13-01025)       i
    •	 conduct research, including using advanced techniques, methods, and technologies to
       detect, assess, and evaluate the effects of hazardous substances on human health and to
       reduce the amount and toxicity of those substances.

WHAT WE FOUND

The Institute generally administered its Superfund appropriations during FY 2012 in accordance
with applicable Federal requirements. However, grantees are required by regulation to submit
Federal financial reports (FFRs) and performance reports, and the Institute did not monitor
whether its Superfund grantees submitted them as required by HHS and NIH policy. Of the 30
grants we reviewed, grantees complied with reporting requirements for 9 grants. However, of
the remaining 21 grants, grantees had not submitted an FFR on time for 14 grants, including 3
grants for which grantees did not submit an FFR at all, and grantees had not submitted a
performance report on time for 9 grants. (Grantees did not submit either the FFR or performance
report on time for 2 grants.)

The Institute did not have policies and procedures in place that defined monitoring
responsibilities regarding whether its grantees complied with reporting requirements and thought
that other NIH offices were responsible for ensuring those requirements were met.

By not monitoring whether Superfund grantees submitted FFRs and performance reports on
time, the Institute could not always ensure that it advanced the goals of the Superfund program in
a cost-effective manner and in compliance with Federal requirements.

WHAT WE RECOMMEND

We recommend that the Institute work with NIH to implement policies and procedures consistent
with the HHS Grants Policy Directives and NIH Grants Policy Statement to ensure that grantees
submit FFRs and performance reports on time and that clearly define the monitoring
responsibilities of grants management staff at the Institute.

NATIONAL INSTITUTES OF HEALTH COMMENTS

In written comments on our draft report, NIH concurred with our recommendation and noted that
it has a number of policies, procedures, and electronic systems in place to address late progress
and financial reports and to ensure proper oversight of these required reports that are consistent
with the HHS Grants Policy Directives and the NIH Grants Policy Statement. NIH also
described actions that the Institute intends to take to implement our recommendation.




National Institute of Environmental Health Sciences Superfund—Fiscal Year 2012 (A-04-13-01025)   ii
                                                     TABLE OF CONTENTS



INTRODUCTION ........................................................................................................................1


          Why We Did This Review ................................................................................................1


          Objective ...........................................................................................................................1


          Background .......................................................................................................................1


                     Superfund ..............................................................................................................1

                     Grant Monitoring Responsibilities........................................................................1

                     National Institute of Environmental Health Sciences ...........................................2


          How We Conducted This Review.....................................................................................2


FINDING              ...............................................................................................................................3


          Grantees Did Not Submit Reports on Time ......................................................................3


                     Institute’s Policies and Procedures Were Inadequate ...........................................4

                     Program Integrity and Accountability Put At Risk ...............................................5


RECOMMENDATION ................................................................................................................5


NATIONAL INSTITUES OF HEALTH COMMENTS ..............................................................5


APPENDIXES


          A: Related Office of Inspector General Reports: Audits of Superfund ..........................6


          B: Audit Scope and Methodology....................................................................................7


          C: Federal Requirements..................................................................................................9


          D: National Institutes of Health Comments ...................................................................11





National Institute of Environmental Health Sciences Superfund—Fiscal Year 2012 (A-04-13-01025)                                                       iii
                                           INTRODUCTION


WHY WE DID THIS REVIEW

The Comprehensive Environmental Response, Compensation, and Liability Act of 1980
(CERCLA) (42 U.S.C. § 9601 et seq) established the Hazardous Substance Response Trust
Fund, which is commonly known as the Superfund. The National Institute of Environmental
Health Sciences (the Institute) receives an annual Superfund appropriation to carry out functions
mandated by the CERCLA.

The CERCLA requires the Inspector General of a Federal organization with Superfund
responsibilities to audit all uses of the fund in the prior fiscal year (42 U.S.C. § 9611(k)). To
meet this requirement, the U.S. Department of Health and Human Services (HHS), Office of
Inspector General (OIG) conducts an annual audit of the Institute’s use of its Superfund
appropriations. (See Appendix A for a list of related OIG reports.)

OBJECTIVE

Our objective was to determine whether the Institute administered its Superfund appropriations
during fiscal year (FY) 2012 in accordance with applicable Federal requirements.

BACKGROUND

Superfund

The CERCLA was extended and amended by the Superfund Amendments and Reauthorization
Act of 1986. The Superfund is used to respond to emergency environmental conditions that are
hazardous to health and to pay for the removal of toxic substances.

The Institute receives funding to carry out functions mandated by the CERCLA. In carrying out
its Superfund responsibilities for FY 2012, the Institute obligated approximately 5 percent of
these funds for administrative costs and awarded the remaining 95 percent as grants to other
organizations to:

    •	 train persons who are engaged in handling hazardous waste and managing facilities
       where hazardous waste is located and

    •	 conduct research, including using advanced techniques, methods, and technologies to
       detect, assess, and evaluate the effects of hazardous substances on human health and to
       reduce the amount and toxicity of those substances.

Grant Monitoring Responsibilities

The Institute is required to monitor its grants to identify potential problems and areas where
technical assistance might be necessary. “This active monitoring is accomplished through
review of reports and correspondence from the grantee, audit reports, site visits, and other



National Institute of Environmental Health Sciences Superfund—Fiscal Year 2012 (A-04-13-01025)      1
information available to NIH [National Institutes of Health]” (NIH Grants Policy Statement,
section 8.4 (effective October 2011)).

HHS agencies that award grants must, at a minimum, require grantees to submit annual financial
reports 1 and a final financial report at the completion of the agreement, and these reports are due
no later than 90 calendar days after the end of each specified reporting period (45 CFR
§ 74.52(a)(1)(iii)-(iv)).

HHS agencies that award grants must also, at a minimum, require grantees to submit annual
performance reports. 2 Annual performance reports are due 90 calendar days after the award
year. 3 Final performance reports, if required, are due 90 calendar days after the expiration or
termination of the award (45 CFR § 74.51(b)).

National Institute of Environmental Health Sciences

The Institute, located in Research Triangle Park, North Carolina, is 1 of 27 Institutes and Centers
of NIH, which is a component of HHS. NIH provides the Institute with direction and other
administrative and professional services.

HOW WE CONDUCTED THIS REVIEW

Our audit included all obligations and disbursements related to FYs 2007 through 2012
Superfund appropriations that occurred from October 1, 2011, through September 30, 2012
(audit period). During the audit period, the Institute obligated 4 approximately $79 million and
disbursed approximately $78 million in Superfund resources. Of the $78 million in
disbursements, $4.4 million was related to FY 2012 funds. The remaining $73.6 million was
related to prior periods.

We judgmentally selected for review a sample of 30 Superfund grants to determine the status of
report submissions and whether the Institute performed grants monitoring activities.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
1
 For awards under the “Streamlined Non-competing Award Process,” a Federal Financial Report (FFR) is required
only at the end of a competitive segment rather than annually (NIH Grants Policy Statement, § 8.4.1.2 (effective
October 2011)).
2
 We use the term “performance reports” throughout this report, consistent with the CFR; however, the NIH Grants
Policy Statement uses the term “progress reports.”
3
  The awarding agency may require annual performance reports before the anniversary dates of multiple-year awards
in lieu of these requirements (45 CFR § 74.51(b)).
4
  “Obligated” funds are amounts for which the Federal agency has made binding commitments for orders placed for
property and services, contracts and subawards, and similar transactions that will require payment immediately or in
the future (GAO-05-734SP Budget Glossary, p. 70).



National Institute of Environmental Health Sciences Superfund—Fiscal Year 2012 (A-04-13-01025)                     2
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our scope and methodology, and Appendix C contains
Federal requirements.

                                                      FINDING

The Institute generally administered its Superfund appropriations during FY 2012 in accordance
with applicable Federal requirements. However, grantees are required by regulation to submit
FFRs and performance reports, and the Institute did not monitor whether its Superfund grantees
submitted them as required by HHS and NIH policy. Of the 30 grants reviewed, grantees
complied with reporting requirements for 9 grants. However, of the remaining 21 grants,
grantees had not submitted an FFR on time for 14 grants, including 3 grants for which grantees
did not submit an FFR at all, and grantees had not submitted a performance report on time for 9
grants. 5

The Institute did not have policies and procedures in place that defined monitoring
responsibilities regarding whether its grantees complied with reporting requirements and thought
that other NIH offices were responsible for ensuring those requirements were met.

By not monitoring whether Superfund grantees submitted FFRs and performance reports on
time, the Institute could not always ensure that it advanced the goals of the Superfund program in
a cost-effective manner and in compliance with Federal requirements. The lack of timely reports
limited the Institute’s ability to identify potential problems, areas where technical assistance
might be necessary, and grantees in need of closer monitoring. The Institute also potentially put
program funding at greater risk of being misused when it awarded additional funds to a grantee
that continued to be delinquent in meeting reporting requirements.

GRANTEES DID NOT SUBMIT REPORTS ON TIME

Although NIH has centralized the submission of reports, the Grants Management Officer (GMO)
is the official receipt point for most required reports (NIH Grants Policy Statement, § 8.4.1
(effective October 2011)). GMOs 6 are responsible for ensuring that grantees fulfill applicable
requirements, including monitoring the receipt of all required reports and taking appropriate
followup action, as necessary, to obtain delinquent reports (HHS Grants Policy Directive 1.04,
par. C and D).

Of the 30 grants that we reviewed, grantees complied with FFR reporting requirements for 16
grants but did not comply with the FFR requirements for the remaining 14. Of the 14 grants that
were not in compliance, grantees had not submitted FFRs for 3 grants and had submitted FFRs

5
 Grantees did not submit either the FFR or performance report on time for 2 grants; thus there were 21 grants with
compliance issues.
6
    The notices of award for the grants in our review showed the responsible official to be a GMO of the Institute.



National Institute of Environmental Health Sciences Superfund—Fiscal Year 2012 (A-04-13-01025)                        3
from 1 to 68 days late for the remaining 11 grants. We noted that one grantee that had not
submitted an FFR received a subsequent grant from the Institute.

Of the 30 grants that we reviewed, grantees complied with performance reporting requirements
for 21 grants but did not comply with performance reporting requirements for the remaining 9.
Of the 9 grants that were not in compliance, grantees had submitted performance reports from 1
to 30 days after the due dates had passed.

The table below summarizes the number of grants reviewed with on time, late, or missing FFRs
and performance reports:

       Table: Frequency of On Time, Late, and Missing Reports for Grants Reviewed

                                                    Federal
                                   Days            Financial       Performance
                                Delinquent          Reports          Reports
                               On Time                16                21
                               1-15                    5                 8
                               16-30                   1                 1
                               31-45                   2                 0
                               46-60                   1                 0
                               61-75                   2                 0
                               Not filed               3                 0
                                 Total                30                30

Institute’s Policies and Procedures Were Inadequate

The Institute did not have policies and procedures in place that defined monitoring
responsibilities regarding whether its grantees complied with reporting requirements.

NIH had systems in place to notify grantees that financial and performance reports were due; 7
however, the Institute’s grants management staff did not follow up with grantees to obtain late or
delinquent reports or take action in situations where reports were never submitted. Institute staff
members were not aware that grantees had not properly submitted the required reports and said
that NIH, and not the Institute, was responsible for ensuring that grantees met report
requirements. Institute staff members also said that NIH had centralized the grant close-out
process so that the Institutes and Centers no longer had to close grants.

When we asked about its responsibilities for ensuring grantees submit timely financial and
performance reports, Institute staff members referred us to language in the NIH Grants Policy

7
 NIH’s Office of Financial Management sent letters to grantees when FFRs were late, and its Information for
Management, Planning, Analysis, and Coordination II (IMPAC II) system sent a late notice to grantees when
performance reports were more than 15 days late. IMPAC II is an electronic grant processing tool that allows
agencies to obtain data on grants.



National Institute of Environmental Health Sciences Superfund—Fiscal Year 2012 (A-04-13-01025)                 4
Statement that requires grantees to electronically submit FFRs and performance reports to NIH
and not the Institute. However, those requirements did not prevent or limit the Institute’s
responsibilities for monitoring grants. Grants management staff at the Institute had access to the
same electronic systems used by NIH offices to process FFR and performance reports. Thus, as
is stated in the HHS Grants Policy Directives and the NIH Grants Policy Statement, the
responsibility for monitoring whether reports are filed on time and taking all appropriate
followup action remains with the Institute.

Program Integrity and Accountability Put At Risk

By not monitoring whether Superfund grantees submitted performance reports and FFRs on
time, the Institute could not always ensure that it advanced the goals of the Superfund program in
a cost-effective manner and in compliance with applicable rules and regulations. The lack of
timely reports limited the Institute’s ability to identify potential problems, areas where technical
assistance might be necessary, and grantees in need of closer monitoring.

The Institute also put program funding at potentially greater risk of being misused when it
awarded additional funds to a grantee that continued to be delinquent in meeting reporting
requirements.

                                        RECOMMENDATION

We recommend that the Institute work with NIH to implement policies and procedures consistent
with the HHS Grants Policy Directives and NIH Grants Policy Statement to ensure that grantees
submit FFRs and performance reports on time and that clearly define the monitoring
responsibilities of grants management staff at the Institute.

                     NATIONAL INSTITUTES OF HEALTH COMMENTS

In written comments on our draft report, NIH concurred with our recommendation and noted that
it has a number of policies, procedures, and electronic systems in place to address late progress
and financial reports and to ensure proper oversight of these required reports that are consistent
with the HHS Grants Policy Directives and the NIH Grants Policy Statement. NIH also
described actions that the Institute intends to take to implement our recommendation.

NIH’s comments are included in their entirety as Appendix D.




National Institute of Environmental Health Sciences Superfund—Fiscal Year 2012 (A-04-13-01025)     5
      APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS: 

                        AUDITS OF SUPERFUND


                           Report Title                              Report Number         Date Issued

   Superfund Financial Activities at the National Institute         A-04-12-01013                7/19/12
   of Environmental Health Sciences—Fiscal Year 2011

   Superfund Financial Activities at the National Institute         A-04-11-01099                6/16/11
   of Environmental Health Sciences—Fiscal Year 2010

   Superfund Financial Activities at the National Institute         A-04-10-01076                8/31/10
   of Environmental Health Sciences

   Superfund Financial Activities at the National Institute         A-04-09-01062                7/28/09
   of Environmental Health Sciences for Fiscal Year 2008

   Superfund Financial Activities at the National Institute         A-04-08-01057                8/25/08
   of Environmental Health Sciences for Fiscal Year 2007




National Institute of Environmental Health Sciences Superfund—Fiscal Year 2012 (A-04-13-01025)             6
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY


SCOPE

Our audit included all obligations and disbursements related to FYs 2007 through 2012
Superfund appropriations that occurred during the period October 1, 2011, through
September 30, 2012. 8 During this period, the Institute obligated approximately $79 million and
disbursed approximately $78 million in Superfund resources. Of the $78 million in
disbursements, $4.4 million was related to FY 2012 funds. The remaining $73.6 million was
related to prior periods.

We did not audit disbursements by grantees because grantee disbursements are subject to
independent audits under 45 CFR § 74.26.

We performed fieldwork from April through November 2013.

METHODOLOGY

To accomplish our audit objective, we:

    •	 reviewed applicable laws and regulations regarding Superfund appropriations;

    •	 reviewed our FY 2011 Superfund audit report (A-04-12-01013) and determined that the
       report contained no findings requiring followup;

    •	 traced NIH accounting records to the list that the Institute provided of all Superfund
       financial transactions recorded from October 1, 2011, through September 30, 2012, to
       determine the accuracy and completeness of the listing;

    •	 traced approximately $75 million in obligations to 60 research and training grant award
       documents to determine whether grant awards were properly recorded;

    •	 determined whether grantees had submitted audits in accordance with Office of
       Management and Budget Circular A-133 and, if so, whether the audit reports contained
       any significant findings related to the Superfund;

    •	 performed a limited review of the Institute’s monitoring activities for 30 judgmentally
       selected grants awarded during FY 2011 or prior years 9 by:



8
 Because annual appropriations may be disbursed up to 5 years beyond the appropriation year, our scope included
obligations and disbursements of FY 2007 through FY 2011 appropriations, as well as those of FY 2012.
9
 We selected grantees from FY 2011 and prior years because financial and performance reports for FY 2012 awards
were not yet due at the time of our fieldwork.



National Institute of Environmental Health Sciences Superfund—Fiscal Year 2012 (A-04-13-01025)                    7
        o	 determining whether grantees had submitted timely financial and performance reports
           in accordance with grant terms and conditions and

        o	 meeting with the Institute’s grants management staff to determine what other grants
           monitoring activities occurred during the audit period;

     •	 obtained an understanding of the Institute’s controls over funding authority, financial
        reporting, and grants;

     •	 performed limited testing of administrative disbursements by comparing disbursements
        recorded during FY 2012 to disbursements recorded during FY 2011; 10 and

     •	 discussed the results of the audit with Institute officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




10
  We limited our testing of these disbursements because of the small amount of administrative costs associated with
Superfund administration relative to the overall funding the Institute received.



National Institute of Environmental Health Sciences Superfund—Fiscal Year 2012 (A-04-13-01025)                    8
                          APPENDIX C: FEDERAL REQUIREMENTS


45 CFR § 74.51 (b)

“The HHS awarding agency will prescribe the frequency with which the performance reports
shall be submitted. Performance reports will not be required more frequently than quarterly or,
less frequently than annually. Annual reports shall be due 90 calendar days after the award year;
quarterly or semi-annual reports shall be due 30 days after the reporting period.”

45 CFR § 74.52 (a)(1)(iii)

“The HHS awarding agency will determine the frequency of the Financial Status Report for each
project or program ... [h]owever, the report will not be required more frequently than quarterly or
less frequently than annually ... [and a] final report shall be required at the completion of the
agreement.”

45 CFR § 74.52 (a)(1)(iv)

“Recipients shall submit the SF-269 and SF-269A 11 (an original and two copies) no later than 30
days after the end of each specified reporting period for quarterly and semi-annual reports, and
90 calendar days for the annual and final reports.”

HHS Grants Policy Directive 1.04, par. C: Organizational Placement of Grants
Management Function

“Grants management staff is responsible for ensuring that, for grants under their cognizance,
both Federal staff and grantees fulfill applicable statutory, regulatory, and administrative policy
requirements.”

HHS Grants Policy Directive 1.04, par. D: Reports and Closeout

“GMOs are responsible for monitoring the receipt of all required reports and taking appropriate
followup action, as necessary, to obtain delinquent reports.”

“GMOs are responsible for closing out grant/award files. In doing so, they must ensure that
grant files contain all pertinent documents, including required reports, and evidence that
appropriate grants management and program office reviews and evaluations have been
conducted.”




11
  As of February 1, 2011, the Office of Management and Budget consolidated the Financial Status Report (FSR or
SF-269/SF-269A) and the Federal Cash Transaction Report (FCTR or SF-272/SF-272A) into a single form known
as the Federal Financial Report (FFR or SF-425/SF-425A).



National Institute of Environmental Health Sciences Superfund—Fiscal Year 2012 (A-04-13-01025)                   9
NIH Grants Policy Statement, October 1, 2011, Monitoring, Section 8.4

“NIH awarding [Institutes and Centers] monitor their grants to identify potential problems and
areas where technical assistance might be necessary. This active monitoring is accomplished
through review of reports and correspondence from the grantee, audit reports, site visits, and
other information available to NIH.”

NIH Grants Policy Statement, October 1, 2011, Reporting, Section 8.4.1

“Failure to submit complete, accurate, and timely reports may indicate the need for closer
monitoring by NIH or may result in possible award delays or enforcement actions, including
withholding, removal of certain NIH Standard Terms of Award, or conversion to a
reimbursement payment method.”

NIH Grants Policy Statement, October 1, 2011, Non-Competing Continuation Progress
Reports, Section 8.4.1.1

        Progress reports usually are required annually as part of the non-competing
        continuation award process. NIH may require these reports more frequently. The
        “Non-Competing Continuation Progress Report” ([Public Health Service] (PHS)
        2590) or equivalent documentation must be submitted to, and approved by, NIH
        to noncompetitively fund each additional budget period within a previously
        approved project period (competitive segment).

NIH Grants Policy Statement, October 1, 2011, Streamlined Non-competing Award
Process (SNAP), Modified Financial Reporting Requirements, Section 8.4.1.2.3

“For awards under SNAP ... an FFR is required only at the end of a competitive segment rather
than annually. The FFR must be submitted within 90 days after the end of the competitive
segment and must report on the cumulative support awarded for the entire segment.”

NIH Grants Policy Statement, October 1, 2011, Submitting SNAP Progress Reports,
Section 8.4.1.2.4

“All SNAP progress reports are due no later than 45 days before the next budget start date and
must be submitted electronically.”

HHS PHS, Instructions for PHS 2590, Continuation Progress Report, Section, 1.

“All [non-SNAP] NIH progress reports must be submitted ... on the first of the month preceding
the month in which the budget period ends, unless a different due date is indicated in the Notice
of Award.”




National Institute of Environmental Health Sciences Superfund—Fiscal Year 2012 (A-04-13-01025)   10
            APPENDIX D: NATIONAL INSTITUTES OF HEALTH COMMENTS




TO:	            Daniel Levinson
                Inspector General, HHS

FROM:	          Director, NIH

DATE:	          February 27, 2014

SUBJECT:	 NIH Comments on the Draft Report, The National Institute of
          Environmental Health Sciences Generally Administered Its
          Superfund Appropriations During Fiscal Year 2012 in Accordance
          With Federal Requirements (A-04-13-01025)


Attached are the National Institutes of Health’s comments on the draft Office of
Inspector General report The National Institute of Environmental Health Sciences
Generally Administered Its Superfund Appropriations During Fiscal Year 2012 in
Accordance With Federal Requirements (A-04-13-01025).

We appreciate the review conducted by the OIG and the opportunity to provide
clarifications on this draft report. Should you have questions or concerns, please
contact Meredith Stein in the Office of Management Assessment at 301-402-8482.


                                                             /s/ Francis S. Collins, M.D., Ph.D.

                                                           Francis S. Collins, M.D., Ph.D.

Attachment




National Institute of Environmental Health Sciences Superfund—Fiscal Year 2012 (A-04-13-01025)     11
National Institute of Environmental Health Sciences Superfund—Fiscal Year 2012 (A-04-13-01025)   12
National Institute of Environmental Health Sciences Superfund—Fiscal Year 2012 (A-04-13-01025)   13
National Institute of Environmental Health Sciences Superfund—Fiscal Year 2012 (A-04-13-01025)   14
